U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

February 26, 2021

Clarence Simon J. v. Dir, OWCP, et al.,
S.Ct No. 20-1013

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 21,
2021 and placed on the docket on January 27, 2021. The government’s response is due on
February 26, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1013
SIMON, CLARENCE J.
DIRECTOR, OFFICE OF WORKERS'
COMPENSATION PROGRAMS, DEPARTMENT OF
LABOR, ET AL.

LOUIS R. KOERNER, JR.
KOERNER LAW FIRM
1204 JACKSON AVE.
NEW ORLEANS, LA 70130
504-405-1411
KOERNER@KOERNER-LAW.COM

